                                                             U.S. Department of Housing and Urban Development
                                                             Region 4 Office of the Inspector General
                                                             Office of Audit, Box 42
                                                             Richard B. Russell Federal Building
                                                             75 Spring Street, SW, Room 330
                                                             Atlanta, GA 30303-3388
                                                             (404) 331-3369




                                                             MEMORANDUM NO:
                                                             2009-AT-1801


September 25, 2009

MEMORANDUM FOR:              Victor Rocher, Director, Office of Public Housing, 4DPH


              //signed//
FROM:         James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:      Miami-Dade Public Housing Agency Needs to Strengthen Controls over Its
              American Recovery and Reinvestment Act Funds


                                     INTRODUCTION

The Miami-Dade Public Housing Agency (Agency) was awarded a $19.3 million capital fund
formula grant under the American Recovery and Reinvestment Act of 2009 (ARRA). ARRA
requires swift obligation and expenditure deadlines with stringent emphasis on accountability
and transparency. As part of our organization’s commitment to ensure the proper use of these
funds, we performed a review of the Agency’s operations to evaluate its capacity to administer
ARRA funding. Specifically, our objective was to review and assess the Agency’s capacity and
risks in the following areas: basic internal controls, financial management, and procurement.

We provided a draft report to the Agency on September 9, 2009, and received written comments
on September 18, 2009. We have included the comments and our evaluation of those comments
in appendix A.

For each recommendation without a management decision, please respond and provide status
reports in accordance with U.S. Department of Housing and Urban Development (HUD)
Handbook 2000.06, REV-3. Please furnish us copies of any correspondence or directives issued
because of the audit.
                              METHODOLOGY AND SCOPE

To accomplish our objective, we

       Reviewed and obtained an understanding of relevant ARRA legislation, program
       guidance, and criteria;

       Reviewed relevant Agency policies and procedures;

       Interviewed HUD and Agency officials;

       Reviewed Agency financial records;

       Reviewed Agency files and records to include staffing assignments, job descriptions, and
       organization charts;

       Reviewed the Agency’s annual plans; and

       Reviewed Agency procurement files and records for two ARRA activities.
At the time of our review, the Agency had not awarded any construction contracts but indicated
that contracts for three planned ARRA activities were almost finalized. We reviewed the two
planned ARRA activities with the largest dollar amounts totaling $345,049. Since the Agency
had not finalized the award of these contracts, we limited our review to determining (1) whether
the selection(s) appeared reasonable and justified, (2) that documentation was available to
support the selection process, and (3) whether the procurement procedures were in accordance
with applicable laws and regulations. The results of our review apply only to the items selected
and cannot be projected to the universe or population.

Our review generally covered the period January 1 through May 31, 2009, and we extended the
period as needed to accomplish our objective. We conducted our review from June 1 through
July 31, 2009, at the Agency office located at 1401 NW 7th Street, Miami, Florida.

For this capacity report, our work was not conducted in accordance with generally accepted
government auditing standards. Under ARRA, inspectors general are expected to be proactive
and focus on prevention; thus, this report is significantly reduced in scope.

                                       BACKGROUND

On February 17, 2009, the President signed ARRA. It provided $13.61 billion for projects and
programs, which included a $4 billion appropriation of capital funds to carry out capital and
management activities for public housing agencies as authorized under Section 9 of the United
States Housing Act of 1937.

HUD awarded the Agency approximately $29.9 million in capital funds in fiscal years 2007 and
2008. In March 2009, HUD awarded the Agency an additional $19.3 million in capital funds
under ARRA. As of May 2009, the Agency had not expended any ARRA funds.


                                              2
We conducted two audits of the Agency’s capital fund program and issued the audit reports on
April 24 and September 17, 2008. Those reports disclosed that (1) the Agency did not maintain
adequate supporting documentation for contracts, (2) the Agency’s internal controls over capital
fund drawdowns were inadequate, and (3) the Agency used capital fund program drawdowns for
ineligible and unsupported expenses. In response to the audits, the Agency implemented a
realignment of the procurement process for contracts to be reviewed at its procurement office. It
also created new accounting policies and procedures for capital funds and better defined the roles
and responsibilities of its accountants that administer capital funds.

                                    RESULTS OF REVIEW

Procurement Procedures Had Weaknesses

Public housing agencies must follow Part 85 and other ARRA requirements. Regulations at 24
CFR [Code of Federal Regulations] 85.36 require that public housing agencies maintain records
sufficient to detail the significant history of each contract’s procurement.

The Agency did not comply with ARRA procurement requirements for the two contracts
reviewed. Specifically, it needs to strengthen its controls to ensure that it maintains records
sufficient to detail the significant history of each contract’s procurement such as

       Identifying that it was an ARRA activity in advertising and within the contract and
       specifying that the bidder agrees to accept all the terms and conditions according to
       ARRA regulations at 2 CFR 176.210 within the contract, the bid form, and special
       conditions;

       Maintaining documentation to support the basis for the independent cost estimate and the
       reason for substantial differences between the cost estimate and price as required by
       HUD Procurement Handbook 7460.8;

       Requiring the contract to indicate the amount of liquidated damages that can be assessed
       to the contractor and the number of required days to complete the work according to
       regulations at 24 CFR 85.36; and

       Documenting the rationale for the procurement method used and selection of contract
       type according to regulations at 24 CFR 85.36.

Regulations at 2 CFR 176.60 prohibit use of recovery funds for construction unless all goods
used in the project are produced in the United States. The Agency did not include in the two
contracts the requirement to buy American products for construction until HUD informed it of
the requirement. It later notified the two contractors of this requirement. HUD officials
informed us that the Agency needed to issue a change order or addendum to the contracts to
ensure that the contractors complied with this requirement.

The Agency’s approach to ensuring that contractors comply with this requirement for future
contracts was also inadequate. Regulations at 2 CFR 176.100(b) require that a determination be

                                               3
made, regarding whether the contractor will use U.S. manufactured products, before the recipient
obligates or awards the funds. Agency officials planned to incorporate 2 CFR Part 176 into
future contracts and require contractors to certify compliance with this requirement. Some
Agency officials informed us that contractors would certify compliance with the buy American
requirement after the contract was awarded, while other staff said that the certification would be
provided before the funds were obligated. HUD officials informed us that Agency certifications
were not sufficient to document compliance with regulations at 2 CFR 176.60.

Public and Indian Housing (PIH) Notice 2009-12 states that public housing agencies shall amend
their procurement standards and policies and remove all procurement standards that are contrary
to Part 85 or the Recovery Act. This amended policy can be used only for procurements related
to Public Housing Capital Fund Stimulus (Formula) Recovery Act Funded grants. The Agency
had not reviewed or amended its procurement policies and procedures to ensure compliance with
ARRA requirements.

Staffing Levels May Be Inadequate

Office of Management and Budget memorandum M-09-15 requires heightened management
attention in ensuring that a sufficient and adequate trained workforce be available to responsibly
plan, evaluate, award, and monitor contracts. We focused our analysis on the responsibilities of
the asset project managers and purchasing specialists. Asset project managers coordinate the
bidding process, prepare contract documentation, and monitor progress toward completion of
ARRA-funded activities. Purchasing specialists coordinate the administration and awarding of
contracts.

We estimate that the workload for the asset project managers and purchasing specialists will
increase approximately 60 percent for the three-year duration of the capital fund recovery grant if
current staffing levels remain the same.

                                        Asset project managers

                                                         Capital fund Capital fund
                        Description                     program grant recovery grant     Totals
        Average amount of funds administered per          $7,214,337    $4,249,110     $11,463,447
        year (1)
        Number of employees to administer the                3             3               3
        programs
         Average amount of funds administered per         $2,404,779    $1,416,370     $3,821,149
         employee
        Percentage increase in workload per                                              58.9%
        employee (2)




                                                    4
                                         Purchasing specialists

                                                         Capital fund Capital fund
                        Description                     program grant recovery grant     Totals
        Average amount of funds administered per          $9,569,330    $5,775,843     $15,345,173
        year (1)
        Number of employees to administer the                3             3               3
        programs
         Average amount of funds administered per         $3,189,777    $1,925,281     $5,115,058
         employee
        Percentage increase in workload per                                              60.4%
        employee (2)



        (1)    For each budget line item of the 2007 and 2008 capital fund program grants and
               2009 capital fund recovery grant, the Agency provided us with an estimated
               percentage of the grant amount administered by staff. To obtain the average
               amount of capital funds administered per year for the 2007 and 2008 program
               grants, we totaled the percentage calculations per budget line item and divided the
               result by two. To obtain the average amount of capital funds administered per
               year for the capital fund recovery grant, we totaled the percentage calculations per
               budget line item and divided the result by three. We divided by three to
               conservatively spread these funds over the three years during which the Agency
               must expend the funds.

        (2)    Asset project manager: $3,821,149 - $2,404,779 / $2,404,779 = 58.9 percent
               Purchasing specialist: $5,115,058 - $3,189,777 / $3,189,777 = 60.4 percent

Based on the increased workload, Agency staffing levels may be inadequate to administer the
additional $19.3 million in capital funds awarded under ARRA. Agency management indicated
that it did not conduct an analysis of staffing needs but believed its staffing was adequate to
administer capital funds. ARRA-funded activities were included in previously approved annual
plans, and Agency management considered the staffing adequate to administer them. However,
Agency staff said that deficiencies in ARRA contracts, such as failing to indicate the amount of
liquidated damages and the number of required days to complete the work, were due to workload
pressures. Agency staff also expressed concerns over the shortage of staff due to the lengthy
contract bidding process, list of responsibilities, and increase in capital fund activities. Agency
staff members said that they had not received any formal training and believed that additional
staff and training on ARRA requirements were needed.

The Agency Had Not Properly Prioritized Its ARRA-Funded Activities

Public Law 111-5 (otherwise known as ARRA) requires that public housing agencies give
priority to capital projects that can award contracts based on bids within 120 days from the date
the funds were made available. Also, PIH Notice 2009-12 states that public housing agencies
must give priority consideration to the rehabilitation of vacant rental units.


                                                    5
HUD made funds available to the Agency on March 18, 2009. The Agency maintains a monthly
report that details the status of each activity and the percentage of work that has been obligated.
Based on this report, as of July 13, 2009, no construction contracts had been awarded. Agency
staff stated that the delay in awarding contracts was due to the lengthy procurement process,
which could take up to six months. The Agency gave priority to activities based on need and
high dollar amount and not to the rehabilitation of vacant units.

Conclusion

The Agency needs to strengthen its controls to fulfill the requirements under the ARRA capital
fund program. It needs to (1) maintain sufficient records to detail the significant history of each
contract’s procurement, (2) amend its procurement policies and procedures as required by HUD,
(3) evaluate its staffing levels and provide staff with training on ARRA requirements to better
administer the program, and (4) prioritize its ARRA-funded activities to move them more
quickly toward completion and meet ARRA requirements to obligate all funds within one year of
availability (March 18, 2010).


                                    RECOMMENDATIONS

We recommend that the Director of the Office of Public Housing require the Agency to

   1A. Fully document the significant history of the procurement for the two contracts
       reviewed to comply with ARRA procurement requirements.

   1B. Provide HUD with documentation supporting that change orders or addendums were
       issued for the two contracts reviewed to ensure that the contractors comply with the
       ARRA buy American requirements.

   1C. Amend its existing procurement policies and procedures to ensure compliance with all
       applicable federal and ARRA requirements for all future procurements when obtaining
       goods and services.

   1D. Conduct a formal analysis to assess its staffing levels and ensure that staff members are
       adequately trained to comply with ARRA requirements.

   1E. Prioritize its ARRA-funded activities to ensure that it complies with ARRA obligation
       deadlines.




                                               6
                               APPENDIXES

Appendix A

                    AUDITEE COMMENTS AND OIG’S EVALUATION



Refer to OIG Evaluation            Auditee Comments




Comment 1




                                    7
Comment 2


Comment 3




Comment 4




            8
Comment 4




            9
10
                          OIG Evaluation of Auditee Comments

Comment 1 The Agency stated that the Donn Gardens and Jack Orr projects inadvertently
          excluded the ARRA procurement requirements and that corrective measures were
          being taken. However, we informed Agency staff that they also did not comply
          with ARRA procurement requirements for the Jollivette Plaza project contract.

Comment 2 The Agency stated that the rationale for competitive bidding of all work and
          awarding the work to the lowest responsive bidder is allowed under HUD
          regulations. We maintain that the Agency should document the rationale for the
          procurement method used and selection of contract type according to regulations
          at 24 CFR 85.36.

Comment 3 The Agency stated that to monitor the Buy American requirements they designed
          a waiver form as required by 2 CFR 176.60 to be used by contractors if the
          products presented for approval are not American made. HUD officials informed
          us that Agency certifications were not sufficient to document compliance with
          regulations at 2 CFR 176.60.

Comment 4 The Agency stated that it has begun implementing several corrective measures to
          address our findings and recommendations. We believe that the corrective
          measures when implemented and enforced would improve Agency administration
          of the ARRA capital fund program.




                                          11
